HHS/OIG-Audit--"Review of Costs Claimed for Federal Financial Participation Under the Title IV-A Emergency Assistance Program by the Pennsylvania Department of Public Welfare for Children in Allegheny County from 10/1/94 - 9/30/96, (A-03-99-00596)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed for Federal Financial Participation Under the Title IV-A Emergency Assistance Program by
the Pennsylvania Department of Public Welfare for Children in Allegheny County from October 1, 1994 to September 30, 1996," (A-03-99-00596)
December 5, 2000
Complete
Text of Report is available in PDF format (6.3 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In this final report the OIG estimates that widespread violations of Federal criteria by the Pennsylvania Department of
Public Welfare (DPW) resulted in Pennsylvania being reimbursed at least $42.4 million in Federal funds for unallowable
claims for emergency assistance services and associated administrative costs under the Title IV-A emergency assistance
program. Of 300 claims reviewed, 251 violated Federal requirements and 141 of the 251 contained 2 or more violations. The
DPW circumvented Federal criteria by disregarding such fundamental principles of the EA program as the child's living arrangements
prior to applying for assistance, the role of parents/guardians in the application process, and the 12-month time period
in which services could be provided. The EA program was terminated by the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996, which created the Temporary Assistance for Needy Families block grant. Therefore, we did not
make procedural recommendations. We did, however, recommend that DPW refund the $42.4 million to the Federal Government.
The DPW generally disagreed with our findings and recommendations.